E-Mail Address: 1115 H Street, N.E.

Est god) briefs@wilsonepes.com Washington, D.C. 20002
WSO wl UNTNG Web Site: Tel (202) 789-0096
ewkee5 www.wilsonepes.com Fax (202) 842-4896

No. 21A21

JOSEPH R. BIDEN, JR., in his official capacity
as President of the United States, et al.,

Applicants,
v.

STATE OF TEXAS and STATE OF MISSOURI,
Respondents.

AFFIDAVIT OF SERVICE
THEREBY CERTIFY that on August 24, 2021, three (3) copies of the MOTION FOR LEAVE AND
BRIEF OF INDIANA, ALABAMA, ARIZONA, ARKANSAS, FLORIDA, GEORGIA, KANSAS,
KENTUCKY, LOUISIANA, MISSISSIPPI, MONTANA, OHIO, OKLAHOMA, SOUTH
CAROLINA, UTAH, AND WEST VIRGINIA AS AMICI CURIAE IN OPPOSITION TO THE
EMERGENCY APPLICATION FOR STAY PENDING APPEAL in the above-captioned case were
served, as required by U.S. Supreme Court Rule 29.5(c), on the following:

Counsel of Record for Applicants: Counsel of Record for Respondents:
BRIAN H. FLETCHER JUDD EDWARD STONE, IT
Acting Solicitor General United States Office of the Attorney General
Department of Justice Office of the Solicitor General
950 Pennsylvania Avenue, NW 209 W. 14th Street
Washington, DC 20530-0001 Austin, TX 78701
202-514-2217 512-936-1700

. DEAN JOHN SAUER

AR. Bi t al.
Counsel for Josep iden, et at Office of the Attorney General
for the State of Missouri

207 W. High Street
Jefferson City, MO 65101-0000
573-751-8807

Counsel for States of Texas and Missouri
The following email addresses have also been served electronically:

SupremeCtBriefs@USDOJ.gov
Judd.Stone@oag.texas.gov

john.sauer@ago.mo.gov
Tom.Fisher@atg.in.gov iL W | (
ROBYN DORSEY WILLIS
WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.
Washington, D.C. 20002
(202) 789-0096

  
 

 

   

District of Columbia
My commission expires April 14, 2022.
